TN

COCKLE

2311 Douglas Street A : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs

Erno contact@cocklelegalbriefs.com
1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-1108

DERAY MCKESSON,
Petitioner,
Vv.
JOHN DOE,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(b), I certify that the BRIEF AMICUS CURIAE
OF NATIONAL ASSOCIATION FOR THE ADVANCEMENT OF COLORED PEOPLE IN
SUPPORT OF PETITIONER in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and
10 point for the footnotes, and this brief contains 5962 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 9th day of April, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

errr] Konee 0. tows Qndeawhl. Chal

My Comm. Exp. September 5, 2023
Notary Public

 

Affiant 39705
